OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
MANAGEMENT OF P.L. 480
NON-EMERGENCY
MONETIZATION PROGRAM
AUDIT REPORT NO. 9-521-06-010-P
SEPTEMBER 28, 2006




WASHINGTON, DC
Office of Inspector General


October 6, 2006

MEMORANDUM

TO:                  USAID/Haiti Mission Director, Paul Tuebner

FROM:                IG/A/PA, Steven H. Bernstein /s/

SUBJECT:             Audit USAID/Haiti’s Management of P.L. 480 Non-Emergency Monetization
                     Program (Audit Report No. 9-521-06-010-P)

This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments to our draft report and have included your response in its entirety in
Appendix II.

This report includes two recommendations that USAID/Haiti complete the 2007/2009 Strategic
Plan and the associated Performance Management Plan and obtain the approval of the Latin
America and Caribbean Bureau for the 2007/2009 Strategic Plan. We consider that a
management decision has been reached to address our concerns regarding the completion of the
Strategic Plan and the Performance Management Plan in Recommendation No. 1. We also
consider that final action has been taken to address our concerns regarding Recommendation No.
2 to obtain Bureau approval for the Strategic Plan. Please coordinate final action on
Recommendation No. 1 with the Bureau for Management’s Office of the Chief Financial Officer,
Audit, Performance and Compliance Division.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Are USAID/Haiti’s P.L. 480 non-emergency monetization
activities achieving selected planned outputs? ................................................................. 3

     Other Matters ............................................................................................................ 5

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11

Appendix III – Summary of Cooperating Sponsors’ Expenditures .......................... 12
SUMMARY OF RESULTS
This audit, performed by the Performance Audits Division, is the pilot in a series of audits
to be conducted by the Office of Inspector General. The objective of this audit was to
determine whether USAID/Haiti's P.L. 480 Title II non-emergency monetization activities
were achieving selected planned outputs (see page 2).

USAID’s P.L. 480 Title II monetization activities involve the selling of agricultural
commodities to obtain foreign currency for use in U.S. assistance programs. Most
times, USAID missions use monetized funds to finance the operational costs of the
direct distribution of food aid to targeted individuals or populations who are vulnerable to
hunger and malnutrition. However, USAID missions may also use monetized funds to
finance other development projects within their programs, e.g., health, infrastructure, and
governance.

USAID/Haiti’s P.L. 480 Title II non-emergency monetization activities are achieving
selected planned outputs such as road rehabilitation and agricultural projects.
Moreover, the Mission has used most of its monetized funds to finance the operational
costs of the direct distribution of food aid under its P.L. 480 Title II food program (see
page 3).

Another matter came to our attention during this audit that requires USAID/Haiti
attention. Since the end of FY 2004, USAID/Haiti had not developed a current Strategic
Plan or a Performance Management Plan (PMP) that would provide decision makers
with timely and relevant information on day-to-day activities and subsequent results or
on goal achievements. For example, although USAID/Haiti’s P.L. 480 Title II non-
emergency monetization activities were achieving selected planned outputs for its third-
country monetization activities, these outputs were not a part of a mission-documented
plan but were selected by an ad hoc committee composed of Mission personnel and a
cooperating sponsor. Moreover, since USAID/Haiti did not document or publish its
performance indicators in either a Strategic Plan or a PMP for FY 2005, USAID/Haiti
could not report data on planned targets or resulting selected outputs for its strategic
objective related to monetization. Without a current and completed Strategic Plan and
PMP, the Mission is hampered from conclusively determining whether it met its goals
and planned outputs. As of September 2006, USAID/Haiti developed its Strategic Plan
that will incorporate final targets and indicators for the strategy period into a PMP when it
is completed next year (see page 5).

Management comments are included in their entirety in Appendix II.              USAID/Haiti
concurred with both recommendations.




                                                                                           1
BACKGROUND
The United States Government continues to be a major provider of food assistance to
developing countries around the world. Through Title II of the Agricultural Trade
Development and Assistance Act of 1954, commonly known as Public Law (P.L.) 480,
USAID’s Office of Food for Peace (FFP) provides commodities to reduce the food
insecurity in vulnerable populations. As a result, P.L. 480 Title II commodities represent the
largest amount of U.S. Government resources committed to combating global food
insecurity, providing over $6.5 billion of assistance since 2000.

P.L. 480 Title II provides agricultural commodities for both emergency and non-emergency
development assistance. In FY 2005, FFP programmed 2.7 million metric tons of food
assistance valued at $1.7 billion. Within the country of Haiti, USAID provided an estimated
total of 103,000 metric tons of commodities valued at $37.7 million for both emergency and
non-emergency activities. USAID/Haiti finances a portion of its Title II development
assistance through an in-country monetization program and a third-country monetization
program designed to generate funds to finance operational costs as well as USAID’s
development programs. Since FY 2005, the FFP monetization budget has represented as
much as 67 percent of the total FFP budget at USAID/Haiti. Moreover, the FFP budget is
USAID/Haiti’s second largest program budget.

To accomplish its food aid goals, USAID/Haiti uses four private voluntary organizations
and cooperatives—World Vision, CARE, Catholic Relief Services, and Save the
Children—who act as cooperating sponsors to manage the P.L. 480 Title II Food
Program. In their in-country direct distribution food aid programs, the cooperating
sponsors distribute the commodities directly to targeted Haitian individuals and
populations who are vulnerable to hunger and malnutrition. The funds generated from the
sale of monetized commodities are then used to finance the operational costs of the direct
distribution of food aid. In addition, the cooperating sponsors may use what is called a
third-country monetization program designed to sell commodities in one country to
generate funds to be used in another country in the same region for USAID development
programs. USAID/Haiti has used proceeds generated from its third-country monetization
program in Peru for the purpose of financing USAID/Haiti’s Infrastructure Improvement
Program.

AUDIT OBJECTIVE
As part of the fiscal year 2006 annual audit plan, the Office of Inspector General
conducted this pilot audit as the first in a series of worldwide audits of USAID’s
management of its P.L. 480 Title II monetization program. The audit was designed to
answer the following question:

   •   Are USAID/Haiti’s P.L. 480 non-emergency monetization activities achieving
       selected planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                            2
AUDIT FINDINGS
USAID/Haiti’s P.L. 480 Title II non-emergency monetization activities are achieving
selected planned outputs for its third country monetization activities. At USAID/Haiti, the
Mission uses two types of monetization activities: (1) in-country monetization activities
and (2) third-country monetization activities. The Mission has expended approximately
$13.7 million for the operational costs for an in-country direct distribution food aid
program and an additional $2.4 million to finance the Mission’s Infrastructure
Improvement Program. Although the Mission achieved selected outputs for its third-
country monetization activities when it implemented infrastructure projects, its in-country
monetization activities did not have any associated direct outputs since the funds
generated were used primarily for operating costs. These operating costs included
administrative expenses—such as internal transportation, handling, labor, storage, and
warehousing—associated directly with the distribution of commodities. Accordingly, we
express no opinion as to whether USAID/Haiti’s in-country monetization activities are
achieving planned outputs. 1

Regulation 211 from Title 22 of the Code of Federal Regulations establishes the legal
and regulatory requirements for implementing transfers of food commodities for use in
disaster relief, economic development, and other assistance. This regulation requires
USAID missions to perform, among other things, a Bellmon Analysis to determine
whether monetization of a particular commodity would have an adverse impact upon
local production or marketing in each country. The result of USAID/Haiti’s Bellmon
Analysis concluded that monetization of a maximum of 80,000 metric tons of wheat
would not result in a substantial disincentive to, or interfere with, domestic production or
marketing in Haiti. The result of USAID/Peru’s Bellmon Analysis for FY 2005 concluded
that third-country monetization from Haiti would not interfere with similar or substitute
products sold in local markets of crude degummed soybean oil in Peru.

In-Country Activities Generated Funds for Operational Expenses - To achieve the
objective of in-country monetization activities, the cooperating sponsors entered into an
agreement with a local wheat mill company to purchase bulk wheat. Under this
arrangement, the sponsors, acting as a consortium led by the cooperating sponsor,
World Vision, periodically requested wheat commodities through USAID/Haiti.
USAID/Haiti would approve requests for the commodities, which included an estimated
sales price based upon the expected market price of wheat at the time the commodity
was expected to be shipped from the United States. When the cooperating sponsors
sold the wheat commodity to the mill, the resulting proceeds were used to pay for
operating costs incurred by the sponsors’ direct distribution food aid program.

Table I in Appendix III provides information on the operating costs for each of the

1
  USAID/Haiti’s in-country monetization program’s intended outputs included measures such as
the number of beneficiaries receiving food aid from the Mission’s P.L. 480 non-monetization,
direct distribution program. The scope of this particular worldwide audit is focused upon
monetization activities. USAID’s P.L. 480 non-monetization, direct distribution programs were the
subject of a recent USAID/OIG worldwide audit conducted in 2004. See USAID/OIG Audit Report
Number 9-000-04-002-P dated March 31, 2004 (http://www.usaid.gov/oig/public/fy04rpts/9-000-
04-002-p.pdf). See the Scope section (Page 10) of this report for more details on the audit
scope.


                                                                                               3
cooperating sponsors for the fiscal year ended September 30, 2005.

Third-Country Activities Achieved Selected Planned Outputs - Although the
Mission’s cooperating sponsors generated the majority of monetized program funds
through in-country activities, the Mission also achieved selected planned outputs from its
third-country monetization activities, which generated funds valued at $2.9 million during
FY 2005. Operating out of Peru, one of USAID/Haiti’s cooperating sponsors generated
funds from the sales of commodities using an agreement designed to sell commodities
in Peru and use the proceeds to finance projects within Haiti.

Outputs, as defined by USAID’s Automated Directives System (ADS) 200.6, represent “a
tangible, immediate, and intended product or consequence of an activity within USAID’s
control. Examples of outputs include people fed, personnel trained, better technologies
developed, and new construction.”          Such selected outputs for USAID/Haiti’s
monetization activities would include the use of funds to finance a specific project or
program which results in a completed project that achieved its intended outcomes, such
as a rehabilitated roadway or an established system for erosion control for agriculture.

Of USAID/Haiti’s four cooperating sponsors in the P.L. 480 Title II Program, Catholic
Relief Services (CRS) of Haiti was the only cooperating sponsor that participated in the
third-country monetization activities. CRS generated funds using an agreement with
CARE of Peru, under which CARE of Peru sold approximately 5,200 metric tons of crude
degummed soybean oil to qualified buyers during FY 2005. CRS of Haiti used the
generated funds to finance its Infrastructure Improvement Program.




Photo of an Office of Inspector General auditor at an irrigation project in Les Cayes, Haiti in May 2006. The
project was financed through a third-country monetization program with funds generated in Peru.




                                                                                                           4
During the fiscal year ending September 30, 2005, USAID/Haiti managed six
Infrastructure Improvement Program projects which cost $2.4 million. The projects were
small ones in which infrastructure improvements focused on community participation to
increase project sustainability. CRS created these projects to rehabilitate secondary and
tertiary roads, bridges, markets, irrigation canals, and parks and to establish systems for
potable water, erosion control, and watershed management. The monetized funds
financed six 6-month projects valued at approximately $400,000 each. The first project
commenced in June 2005 and the last project ended in February 2006. According to
Mission records and through our audit procedures (which included on-site inspections),
all of the USAID/Haiti projects were completed as scheduled. These projects were:

   •   The rehabilitation of 47.5 kilometers of rural roads in the Northwest Department;

   •   The hydro-agricultural arrangement of the Jean-Rabel Perimeter;

   •   The improvement of 5.5 kilometers of rural roads in Dessalines communes;

   •   The rehabilitation of irrigation and drainage infrastructures of 617 hectares in the
       villages of Chantal and Charlette, southern Haiti;

   •   The rehabilitation of 10 kilometers of road linking Arniquet-Chateau-Lazarre and
       Duclair and 2 kilometers of irrigation canal in Foscave-Guilleme; and,

   •   The production of potable water catchments and watershed management of
       AnseRouge/North-West of Artibonite.

At two of the six Infrastructure Improvement Program projects, CRS’ sub-grantees had
not placed permanent USAID markings on a road or an irrigation canal that had been
improved using USAID funds.           Because the projects were financed through
monetization, USAID guidance does not require the cooperating sponsor to permanently
mark a project. Consequently, neither the U.S. Government nor the American people
are receiving proper credit for the provision of the monetization resources. As a
proactive measure, USAID/Haiti and its sub-grantees plan to place permanent markings,
at a minimal cost, at these two projects and at future projects, as well. Moreover,
USAID’s Office of General Counsel has explained that the P.L. 480 Title II Federal
regulations and USAID guidance requirements are currently under revision and, when
finalized within a few months, will require permanent markings. Since these revisions
are not finalized, we are not making a recommendation at this time.

This audit produced no findings with respect to USAID/Haiti’s P.L. 480 Title II
monetization activities or with respect to its Food for Peace office. The audit did,
however, have a general finding with respect to the Mission’s program office, as
explained in the next section.

Other Matters

  Summary: USAID’s Automated Directive System 203.3.4.6 and 201.3.4 require
  operating units to update their Performance Management Plans (PMP) regularly
  with new performance information as programs develop and evolve, as part of an


                                                                                           5
  annual portfolio review process, and have in place an approved Strategic Plan
  before obligating program funds for their Strategic Objectives.            However,
  USAID/Haiti had not updated its Strategic Plan and PMP since fiscal year 2004.
  According to Mission officials, these documents were not updated, completed, and
  approved because of staffing shortages, a natural disaster, and political instability
  within the operating environment. Consequently, USAID and Mission decision
  makers lacked a performance measurement tool designed to provide information to
  help objectively assess the Mission’s progress in meeting its Strategic Objective(s).

Another matter came to our attention during this audit that requires USAID/Haiti
attention. Since the end of FY 2004, USAID/Haiti had not developed a current Strategic
Plan or a Performance Management Plan (PMP) that would provide decision makers
with timely and relevant information on day-to-day activities and subsequent results or
on goal achievements. For example, although USAID/Haiti’s P.L. 480 Title II non-
emergency monetization activities were achieving selected planned outputs for its third-
country monetization activities, those outputs were not a part of a mission-documented
plan but were selected by ad hoc committee composed of Mission personnel and a
cooperating sponsor. Moreover, since USAID/Haiti did not document or publish its
performance indicators in either a Strategic Plan or a PMP for FY 2005, USAID/Haiti
could not report data on planned targets or resulting selected outputs for its strategic
objective related to monetization. Without a current and completed Strategic Plan and
PMP, the Mission is hampered from conclusively determining whether it met its goals
and planned outputs.

As of September 2006, USAID/Haiti finalized its Country Strategy for 2007-2009. The
strategy includes three Strategic Objectives (SOs)—two of which include P.L. 480
activities. Mission officials plan to include illustrative indicators and current standard
program component indicators in planning documents that will be used to support the
SOs. In turn, final targets and indicators for the strategy period will be folded into the
PMP when the PMP is completed some time next year.

According to USAID’s Automated Directives System (ADS) section 201.3.4, each
operating unit must have an approved Strategic Plan in place before obligating program
funds for its Strategic Objectives. The operating unit’s approved Strategic Plans
represent an Agency-wide commitment to a set of Strategic Objectives and Intermediate
Results to be accomplished by an operating unit.

Also, ADS section 203.3.3 states that operating units must prepare a complete PMP for
each Strategic Objective within one year of approval of the objective. A Strategic
Objective constitutes the basic unit for achieving results and reporting progress.
Moreover, a Strategic Objective is one of the most significant elements of a Strategic
Plan, which holds missions accountable for achieving programmatic goals for long-term
sustainability. Consequently, the Mission’s PMP exists as a guide to indicate how
management intends to achieve the objectives listed in the Strategic Plan.

Several contributing factors prevented USAID/Haiti from updating the Strategic Plan and
Performance Management Plan in a timely manner. The Mission endured a staffing
shortage that was further exacerbated by frequent evacuations during 2004 and 2005.
These evacuations had durations of 5 to 13 months; the last occurred on May 27, 2005,
and lasted more than 6 months. Earlier, in February 2005, USAID’s Bureau for Latin


                                                                                          6
America and the Caribbean (LAC) performed a Mission assessment that confirmed the
management challenges associated with understaffing in the Mission’s Program Office.
Additionally, officials within USAID’s Bureau for Policy and Program Coordination and
LAC acknowledged that, because of the political instability in Haiti at various times,
USAID/Haiti had to suspend its programs and switch into a crisis mode. During these
periods, the Mission’s portfolio was changing constantly to focus on ensuring minimal
governance in the country and to maintain a minimum level of sanitation. As a result,
the Mission developed short-term objectives to respond to the immediate needs of the
Haitian people, such as providing fuel daily to maintain electricity in the Haitian capital of
Port–au-Prince and conducting recovery efforts due to devastation caused by tropical
storm Jeanne, which ravaged the country in 2004.

Although the Mission faced daily challenges of a rapidly changing nature, USAID/Haiti
was required to change its Strategic Objective focus—a change dictated by both political
and emergency situations. In spite of the challenges and the hazardous work
environment, the Mission did not cease operation and continued to report on the short-
term objectives to USAID/Washington on a daily basis. As the political environment
stabilized and the country recovered from the storm, the Mission made notable
accomplishments to refocus its Strategic Objectives.

Since the PMP was developed to systematically provide decision makers with
information on the results to be achieved for a proposed level of resources, it reinforces
the connections between the long-term strategic goals outlined in the Strategic Plan and
the day-to-day activities of program managers and staff. Further, the PMP provides a
basis for a mission to compare actual results with performance objectives. In this regard,
the performance indicators and performance results should be readily available to assist
decision makers with critical, verifiable, and valid information. Furthermore, it is
imperative that USAID/Haiti complete a PMP, as required, as part of its Strategic Plan
given that (1) the Food for Peace monetization budget is a substantial portion of the
Mission’s total budget (as USAID/Haiti’s second largest program budget) and (2) FFP-
related indicators are incorporated in various Mission Strategic Objectives in programs
that are cross-cutting and that, as such, cannot be distinctively differentiated for any
objective evaluation. Moreover, inasmuch as USAID’s Administrator has announced
plans to use missions’ performance plans, among other things, to help formulate the
Agency’s budget for the upcoming fiscal year, the importance of updating a mission’s
PMP is amplified. Without an updated Strategic Plan and Performance Management
Plan to track, assess, and report progress toward established program indicators or
Strategic Objectives, USAID/Haiti has not been able to provide valid and objective
information for management decision making.

To improve its processes and operations, the Mission has hired additional staff and has
prepared a draft Strategic Plan for fiscal years 2007-2009, which is currently circulating
for internal review. According to Mission officials, after the Strategic Plan is approved,
USAID/Haiti plans to update its PMP with revised indicators for the Strategic Objectives.
With this in mind, we are making the following two recommendations:

   Recommendation No. 1: We recommend that USAID/Haiti complete the
   2007/2009 Strategic Plan and the associated Performance Management Plan.

   Recommendation No. 2: We recommend that USAID/Haiti obtain the approval of
   the Latin America and Caribbean Bureau for the 2007/2009 Strategic Plan.


                                                                                            7
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft audit report, USAID/Haiti concurred with both
recommendations and described actions taken and planned to address
Recommendation Nos. 1 and 2.

For Recommendation No. 1, USAID/Haiti has completed the 2007/2009 Strategic Plan.
The Mission plans to complete the Performance Management Plan by August 2007. As
a result of these actions, a management decision has been reached for
Recommendation No. 1.

In response to Recommendation No. 2, USAID/Haiti obtained the approval of the Latin
America and Caribbean Bureau for the 2007/2009 Strategic Plan. As a result, final
action has been taken for Recommendation No. 2.




                                                                                 8
                                                                            APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Performance Audits Division of the Office of Inspector General (OIG) conducted this
audit of USAID/Haiti’s P.L. 480 Title II Non-Emergency Monetization Activities in
accordance with generally accepted government auditing standards. This audit was the
first in a planned series of audits to be conducted by the OIG and was designed to
answer the following question: Are USAID/Haiti’s P.L. 480 Title II non-emergency
monetization activities achieving selected planned outputs?

In planning and performing the audit, we obtained an understanding of the management
controls related to the documentation, accurate and timely recording of transactions and
events, and supervision of USAID/Haiti’s non-emergency monetization program activities
for management of funds.

The selected planned outputs audited and tested was the entire universe of programs
financed through the Mission’s monetization activities valued at $2.4 million. The
Mission financed six Infrastructure Improvement Programs with monetization proceeds
of $2.9 million. Program activities commenced during the FY 2005 and were completed
during the FY 2006. We excluded the Mission’s non-monetization, direct distribution
program from the scope of the audit because the direct distribution of commodities (i.e.,
transportation, storage and labor expenses) was associated with the movement of food
aid, and not specific monetization activities.

We conducted the fieldwork for this audit from May 2, 2006, to June 29, 2006, at
USAID/Haiti, the offices of cooperating sponsors World Vision and Catholic Relief
Services, field sites in the regions of Les Cayes, Les Moulins D’Haiti, and the Bureau de
Gestion, the Haitian Government Office responsible for commodity importation.

Methodology
To answer the audit objective, we conducted interviews with USAID/Haiti and
USAID/Washington staff, and cooperating sponsor representatives from World Vision
and Catholic Relief Services (CRS) to determine the roles and responsibilities for
managing various aspects of both the in-country and third-country monetization process
in Haiti. We also reviewed the relevant U. S. laws governing the P.L. 480 Title II
Program as well as applicable USAID policies and procedures in the Automated
Directives System (ADS). Additionally, audit staff reviewed USAID/Haiti and World
Vision documentation on the Bellmon Analysis for Haiti and Peru to determine if any
significant adverse impact occurred as a result of the Mission’s wheat and degummed
soybean oil monetization programs, and Regulation 211 from Title 22 of the Code of
Federal Regulations regarding both the aforementioned Bellmon Analysis and publicity
requirements for projects financed through monetization. The team also reviewed ADS
320 regarding USAID’s logo and branding requirements for projects.




                                                                                       9
The audit team reviewed USAID/Haiti’s Strategic Plans, Annual Reports, and
Performance Management Plan to determine performance indicators, program intended
and targeted outputs, and milestones achieved during the audit period. Moreover, we
reviewed the Mission’s management assessment report and the Federal Manager’s
Financial Integrity Act Reports for the fiscal years of 2004 and 2005 to determine
whether the Mission had taken corrective actions for identified weaknesses.

To gain an understanding of the third-country monetization program as it operates in
Haiti, we conducted interviews with staff from USAID/Haiti’s Food for Peace Office and
CRS. We reviewed source documentation from CARE/Peru on bills of lading, sales of
the commodities, and distribution of generated funds to CRS in Haiti. Additionally, we
reviewed documentation provided by CRS on all six rehabilitation contracts, work
progression reports, and project finalization reports, as well as conducted site visits at
two infrastructure rehabilitation projects. During the site visits, we interviewed CRS sub-
grantees and local Haitian beneficiaries, and observed completed projects. For those
remaining four projects that were not visited, we examined supporting documentation,
such as field visit reports, and final distribution of generated funds to determine that the
documents existed and were complete.

The selected outputs tested included the entire universe of six Infrastructure
Improvement Programs financed through USAID/Haiti’s monetization activities that were
identified in the Development Activity Proposals written by the cooperating sponsors and
approved by the Mission. These programs included road rehabilitation and irrigation
system replacement. We measured whether these programs had been completed
successfully and timely by examining project engineers’ completion reports and
conducting site visits.

The materiality threshold for this audit was such that, if 90 percent of the selected
outputs achieved at least 90 percent of the intended output level, the audit objective
would be answered positively; if 80 to 89 percent of the selected outputs achieved 90
percent of the intended output level, the audit objective would be answered positively but
with a qualification; if less then 80 percent of the selected outputs achieved 90 percent of
the intended output level, the audit objective would be answered negatively.




                                                                                         10
                                                                           APPENDIX II


MANAGEMENT COMMENTS
MEMORANDUM


Date:         August 30, 2006

Reply to:     Lawrence Hardy II, USAID/Haiti Acting Mission Director /s/

Subject:      Comments on the IG Draft Audit Report No. 9-000-06-XXX-P

To:           Steven H. Bernstein IG/A/PA USAID/IG/Washington


This memorandum constitutes USAID/Haiti’s response to the Inspector General (IG)
Draft Audit Report of USAID/Haiti’s Management of P.L. 480 Non-Emergency
Monetization Program (Report No. 9-000-06-XXX-P) dated August 8, 2006.

General Comments:

USAID/Haiti appreciates the time and effort of your staff in carrying out the performance
audit of the Management of P.L. 480 Non-Emergency Monetization program. The
Mission concurs with the recommendations.

Recommendation No. 1: We recommend that USAID/Haiti complete the 2007/2009
Strategic Plan and the associated Performance Management Plan.

Action Taken: The Mission has completed the 2007/2009 Strategic Plan as scheduled.
The plan was approved by USAID/Washington on August 2, 2006. As per ADS, the
Mission has a year from the date of the strategy approval to complete the Performance
Management Plan.

Recommendation No. 2: We recommend that USAID/Haiti obtain the approval of the
Latin America and Caribbean Bureau for the 2007/2009 Strategic Plan.

Action Taken: The Mission has already obtained the approval of the Latin America and
Caribbean Bureau as stated above.

Given the above actions, please consider recommendations No. 1 and No. 2 resolved
upon issuance of the final audit report.

In closing, USAID/Haiti would again like to express its appreciation for the manner in
which the audit was conducted.




                                                                                      11
                                                                                           APPENDIX III

Table I – Summary of USAID/Haiti’s P.L. 480 Title II Cooperating Sponsors’
Expenditures in Support of Direct Distribution Activities for the Fiscal Year Ended
September 30, 2005, in U.S. Dollars*

     Expense           World          CARE           Catholic        Save the               Totals
    Description        Vision                         Relief         Children
                                                     Services
Personnel              2,834,293      2,118,679       1,529,970        328,505                    6,811,447
Consultants               46,494        (12,256)                                                     34,238
Travel/Per Diem          930,281        147,851         125,056          33,094                   1,236,282
Training                  57,727          71,996        183,450          37,518                     350,691
Office Operations                                                        22,572                      22,572
Supplies                 151,807                                         50,840                     202,647
Equipment                  6,693                           7,144                                     13,837
Procurements                             46,706                                                      46,706
Contractual                                              63,561                                      63,561
Occupancy                133,633                                                                    133,633
Vehicle Fuel and
Maintenance                             108,097                                                      108,097
Internal
Transportation,
Storage and
Handling                                  6,950                                                        6,950
Other Direct
Costs                    155,535        219,904         748,314        112,015                    1,235,768
Associated
Development
Projects                                                160,045                                      160,045
Commodity
Management                                              288,521                                      288,521
Currency
(Gain)/Loss                                           253,530**                                      253,530
Indirect
Costs                    870,042        212,030         747,644        139,752                    1,969,468
HAS (Save the
Children sub-
grantee)                                                               449,993                       449,993
MARCH (Save
the Children sub-
grantee)                                                               317,009                       317,009

Total Expenses         5,186,505      2,919,957       4,107,235       1,491,298                  13,704,995

* Unaudited data; table illustrates values of direct distribution activities in which no planned outputs are
associated.
** CRS was the only cooperating sponsor to implement third-country monetization activities in Peru.
According to a USAID/Haiti official, the loss indicated resulted from the conversion of currency at the time
the funds were transferred.

.




                                                                                                         12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
